No.19-1104

Jh1 tbe ~upreme <!ourt of tbe Wniteb ~tates
Mark Janus, Petitioner,
V.

American Federation of State, County and
Municipal Employees, Council 31, et al.,
Respondents.
On Petition for Writ of Certiorari
to the United States Court of Appeals for the Seventh Circuit
CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.l(h), I certify that the Brief in Opposition for
Respondents Kwame Raoul and Janel L. Forde contains 1,704 words, excluding the parts of
the document that are exempted by Supreme Court Rule 33.l(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on May 11, 2020.

,

I

(V

Jane Elinor Notz
100 West Randolph Street
Chicago, Illinois 60601
(312) 814-5376
jnotz@atg.state.il.us
Counsel for Respondents
Kwame Raoul and Janel L. Forde

